              The Method of Tracking Corrective Actions for
               Known Security Weaknesses Has Not Been
                        Adequately Developed

                                   January 2005

                       Reference Number: 2005-20-027




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                          January 12, 2005


      MEMORANDUM FOR CHIEF, MISSION ASSURANCE AND SECURITY SERVICES


      FROM:             (for) Gordon C. Milbourn III
                              Assistant Inspector General for Audit
                              (Small Business and Corporate Programs)

      SUBJECT:               Final Audit Report - The Method of Tracking Corrective Actions
                             for Known Security Weaknesses Has Not Been Adequately
                             Developed (Audit # 200420030)


      This report presents the results of our review of the effectiveness of the Internal
      Revenue Service’s (IRS) process for monitoring security weaknesses. The purpose of
      this review was to evaluate the Plans of Action and Milestones (POA&M) process
      employed by the IRS and determine whether the POA&M process satisfies the Office of
      Management and Budget (OMB) requirements and assists the agency in managing its
      risk and vulnerabilities.
      OMB regulations state Information Technology (IT) security is one of several critical
      components agencies must meet to achieve a green or yellow status for the
      E-Government Scorecard. To achieve either status for the IT security component of the
      E-Government Scorecard, agencies must demonstrate consistent progress in reducing
      IT security weaknesses through their POA&Ms, and the Inspectors General must verify
      whether the process is effective.
      In summary, the IRS has prepared POA&Ms to track both program-level and
      system-level weaknesses. However, the process it uses to identify weaknesses and
      report progress is flawed and ineffective. As a result, information provided to the
      Department of the Treasury and the OMB has been inaccurate and misleading.
      The program-level POA&M identified the number of security reports issued by the
      Government Accountability Office and the Treasury Inspector General for Tax
      Administration, but it did not identify the specific weaknesses reported. As a result, the
      number of program-level weaknesses was significantly understated.
      The system-level POA&Ms did not accurately and completely describe the security
      weaknesses and milestones, understated the number of weaknesses, and overstated
                                                          2

progress in addressing the weaknesses. The IRS prepared almost identical POA&Ms
for each system, noting only broad control topics rather than specific weaknesses.
Specific actions aimed at correcting the weaknesses were not detailed, and responsible
individuals were not identified. Essentially, the POA&Ms were so vague they could not
be used in managing and overseeing the security program.
For the most recent POA&M submission to the Department of the Treasury, dated
September 2004, the IRS reported 319 system-level weaknesses for its 80 major
systems. This number is understated because it represents only management control
weaknesses such as lack of a certification and accreditation, security plan, or tested
contingency plan. Generally, operational and technical control weaknesses were not
reported.
Progress in addressing the weaknesses was overstated. The IRS assumed if a system
had been certified and accredited, then nearly all weaknesses noted on the system’s
POA&M could be closed. This assumption is not valid since certified and accredited
systems can still have security weaknesses. We know of no testing that was done to
identify security weaknesses or to ensure weaknesses were corrected.
To ensure an effective system is in place to monitor security weaknesses, we
recommended the Chief, Mission Assurance and Security Services (MA&SS),
coordinate with the Chief Information Officer (CIO) and business unit owners to develop
POA&Ms that specifically identify all known security weaknesses. The POA&Ms should
contain details sufficient to allow oversight of the IRS security program. The Chief,
MA&SS, should also accurately report the results of efforts to correct security
weaknesses. Testing should be conducted to ensure the weaknesses have been
corrected before the POA&Ms are closed.
Management’s Response: The Chief, MA&SS, agreed with our recommendations and
has initiated a number of corrective actions. The Chief, MA&SS, has established a
Federal Information Security Management Act (FISMA)1 working group of executives
and senior staff from the business units and from the Modernization and Information
Technology Services organization to develop and implement an approach to managing
the POA&M process. In coordination with the CIO and business unit owners, the Chief,
MA&SS, will develop a matrix to allow the reconciliation and validation of corrective
actions through the testing process. Management’s complete response to the draft
report is included as Appendix IV.

Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.



1
    The FISMA is part of the E-Government Act of 2002, Pub. L. No. 107-347, Title III, Section 301, 2002.
                       The Method of Tracking Corrective Actions for Known
                     Security Weaknesses Has Not Been Adequately Developed




                                                  Table of Contents


Background ............................................................................................... Page 1
The Current Method to Track Security Weaknesses
Is Not Reliable or Effective ........................................................................ Page 2
         Recommendation 1: .........................................................................Page 6
         Recommendation 2: .........................................................................Page 7

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 8
Appendix II – Major Contributors to This Report ....................................... Page 9
Appendix III – Report Distribution List ....................................................... Page 10
Appendix IV – Management’s Response to the Draft Report .................... Page 11
               The Method of Tracking Corrective Actions for Known
             Security Weaknesses Has Not Been Adequately Developed

                              The Office of Management and Budget (OMB) requires all
Background
                              Federal Government agencies to identify and track their
                              progress in correcting computer security weaknesses.
                              Specifically, the OMB requires each agency to develop
                              Plans of Action and Milestones (POA&M) for identifying
                              and managing weaknesses in its security programs and
                              systems. Plans should be developed to correct the
                              weaknesses, milestones should be provided for monitoring
                              actions, and completion dates should be set.
                              Each quarter, the Internal Revenue Service (IRS) must
                              submit its current list of security weaknesses to the
                              Department of the Treasury to demonstrate whether it is
                              effectively managing its security program. The Department
                              of the Treasury then combines these results with those from
                              the other bureaus and provides the results to the OMB.
                              The OMB directs Inspectors General (IG) to assess, using
                              specific criteria,1 whether the agencies have developed,
                              implemented, and managed an agency-wide POA&M
                              process. IGs are required to report to the OMB annually on
                              whether agencies have an effective process for monitoring
                              security weaknesses.
                              OMB regulations state Information Technology (IT)
                              security is one of several critical components agencies must
                              meet to achieve a green or yellow status for the
                              E-Government Scorecard. To achieve either status for the
                              IT security component of the E-Government Scorecard,
                              agencies must demonstrate consistent progress in reducing
                              IT security weaknesses through their POA&Ms.
                              This review was performed in the Office of Mission
                              Assurance and Security Services (MA&SS) at the IRS
                              Headquarters in New Carrollton, Maryland, during April
                              and May 2004. We delayed issuing this report so we could
                              include modifications the IRS was making to the POA&M
                              process for its Fiscal Year (FY) 2004 Federal Information
                              Security Management Act (FISMA)2 report for the period
                              ending August 31, 2004. The audit was conducted in


                              1
                                OMB Memorandum M-02-01, Guidance for Preparing and Submitting
                              Security Plans of Actions and Milestones, dated October 17, 2001.
                              2
                                The FISMA is part of the E-Government Act of 2002,
                              Pub. L. No. 107-347, Title III, Section 301, 2002.
                                                                                        Page 1
                 The Method of Tracking Corrective Actions for Known
               Security Weaknesses Has Not Been Adequately Developed

                                accordance with Government Auditing Standards. Detailed
                                information on our audit objective, scope, and methodology
                                is presented in Appendix I. Major contributors to the report
                                are listed in Appendix II.
                                The IRS has prepared POA&Ms to track both program-level
The Current Method to Track     and system-level weaknesses. However, the process it uses
Security Weaknesses Is Not      to identify weaknesses and report progress is flawed and
Reliable or Effective           ineffective. As a result, information provided to the
                                Department of the Treasury and the OMB has been
                                inaccurate and misleading.
                                Without an effective POA&M process, the IRS cannot
                                identify and monitor security weaknesses to ensure the most
                                significant weaknesses are timely addressed. In addition,
                                the Department of the Treasury is developing a central
                                database to track POA&Ms for all its bureaus. It envisions
                                using this database to generate quarterly reports for the
                                OMB. As the Department of the Treasury’s largest bureau,
                                the IRS must maintain an adequate POA&M process if the
                                database is to be reliable. Also, without an effective
                                POA&M process, the IRS will be unable to achieve either a
                                green or yellow status on the E-Government Scorecard.
                                In our opinion, the IRS has not provided sufficient emphasis
                                and instilled the discipline necessary to ensure it has a
                                system in place to monitor security weaknesses.
                                Consequently, it has reported only general weaknesses for
                                its systems and overstated the actions it has taken to
                                improve the security program.
                                The program-level POA&M cannot be used to monitor
                                progress in addressing program-level weaknesses
                                The program-level POA&M addresses weaknesses that may
                                affect security IRS-wide. Generally, the Chief, MA&SS, is
                                responsible for preparing the POA&M and resolving these
                                weaknesses.
                                For the quarter ending June 2004, the IRS reported nine
                                computer security weaknesses on one program-level




                                                                                      Page 2
  The Method of Tracking Corrective Actions for Known
Security Weaknesses Has Not Been Adequately Developed

                 POA&M. The nine weaknesses coincided with the nine
                 security issues of the computer security material weakness.3
                 In August 2004, the IRS modified the program-level
                 POA&M. It now includes 86 security weaknesses (1 plan
                 for all 9 material weakness areas and 85 new computer
                 security program-level weaknesses). The new weaknesses
                 relate to the 85 Government Accountability Office (GAO)
                 and Treasury Inspector General for Tax Administration
                 (TIGTA) audit reports with open recommendations. These
                 weaknesses had not been reported on prior submissions of
                 the program-level POA&M.
                 However, the program-level POA&M cannot yet be used as
                 a tool to track and monitor the IRS’ progress in addressing
                 its security program weaknesses. We have the following
                 concerns:
                 •   The number of program-level weaknesses reported to
                     the Department of the Treasury is significantly
                     understated. The IRS considered each GAO and TIGTA
                     audit report to be one weakness, listing only the title of
                     the report as the weakness. Since GAO and TIGTA
                     reports generally identify more than 1 weakness, the
                     actual number is several times the 85 weaknesses
                     reported by the IRS.
                 •   The POA&M indicates the status of all milestones is
                     ongoing and does not reflect interim corrective actions
                     that may have already been taken. The completion date
                     for all program-level weaknesses is September 2005,
                     which does not coincide with the corrective actions
                     provided to the TIGTA reports.




                 3
                   The IRS currently reports computer security as a material weakness.
                 This material weakness is comprised of nine component security areas:
                 1) network access controls, 2) system and application access controls,
                 3) configuration management, 4) delineation of security roles and
                 responsibilities, 5) segregation of system and security administration
                 duties, 6) disaster recovery, 7) audit trails, 8) security training, and
                 9) certification and accreditation.
                                                                                  Page 3
  The Method of Tracking Corrective Actions for Known
Security Weaknesses Has Not Been Adequately Developed

                 System-level POA&Ms cannot be used to monitor
                 progress in identifying and correcting security
                 weaknesses in the IRS’ major systems
                 System-level POA&Ms address weaknesses that are specific
                 to individual systems. Generally, the owner of the system,
                 either the business unit owner or the Chief Information
                 Officer (CIO), is responsible for preparing system-level
                 POA&Ms and resolving these weaknesses.
                 The system-level POA&Ms the IRS prepared did not
                 accurately and completely describe security weaknesses and
                 milestones and understated the number of system-level
                 weaknesses reported to the Department of the Treasury.
                 The IRS stated the system security self-assessments it
                 conducted in 2003 were the basis for identifying weaknesses
                 included in the POA&Ms. In an earlier report,4 we took
                 exception to the approach taken by the IRS in conducting
                 the self-assessments because the assessments did not include
                 testing security controls.
                 In June 2004, the IRS provided the Department of the
                 Treasury and the OMB with system-level POA&Ms for
                 92 major systems. The POA&Ms showed almost all of the
                 systems had identical weaknesses. These weaknesses
                 coincided with the 17 control topics provided by the
                 National Institute of Standards and Technology (NIST) in
                 its Security Self-Assessment Guide for Information
                 Technology Systems5 (5 management control weaknesses,
                 9 operational control weaknesses, and 3 technical control
                 weaknesses).
                 The milestones for each system were also nearly identical,
                 indicating certification and accreditation activities as the
                 corrective actions. Milestones for each of the general
                 support systems were identical.
                 In August 2004, the IRS revised the system-level POA&Ms.
                 There are now 80 system-level POA&Ms, 1 for each of the
                 revised number of systems in the major systems inventory.
                 However, the number of weaknesses is understated, and the
                 information provided on the system-level POA&Ms is still

                 4
                   Performance Data for the Security Program Should Be Corrected
                 (Reference Number 2004-20-093, dated April 2004).
                 5
                   SP 800-26, dated November 2001.
                                                                             Page 4
  The Method of Tracking Corrective Actions for Known
Security Weaknesses Has Not Been Adequately Developed

                 so general and vague that the IRS, TIGTA, GAO,
                 Department of the Treasury, and OMB could not use them
                 to monitor the progress of the IRS security program. For
                 example:
                 •   The weaknesses are still based on insufficient
                     self-assessments because, as was true for FY 2003, the
                     FY 2004 self-assessments did not include testing of
                     security controls. We know of no testing that was done
                     to identify specific security weaknesses.
                 •   The weaknesses are still nearly identical for each system
                     and are stated in terms of the NIST control areas rather
                     than as specific security weaknesses.
                 •   The milestones for all of the applications are identical:
                     (1) assign accountable personnel, (2) perform gap
                     analysis, (3) design and test process, and (4) implement
                     solution.
                 •   The IRS claims system-level POA&Ms must be vague
                     to preclude an unauthorized or inadvertent disclosure of
                     sensitive information. We disagree with this assertion.
                     Oversight officials authorized to review POA&Ms must
                     see the detailed weaknesses and milestones to be able to
                     monitor progress on the corrective actions.
                 •   The number of system-level weaknesses reported to the
                     Department of the Treasury is understated. In
                     September 2004, the IRS reported only 319 system-level
                     weaknesses at the beginning of the quarter. This
                     number is understated because it represents only 3 of the
                     17 NIST security controls for each system such as the
                     lack of certification and accreditation, or the lack of a
                     security plan or tested contingency plan. Generally,
                     operational and technical control weaknesses were not
                     reported. Without reliable self-assessment results, as
                     reported earlier, we cannot determine the actual number
                     of weaknesses for each system; however, we estimate
                     that it would be many times more than the number
                     reported to the Department of the Treasury if all
                     17 NIST control areas were included.
                 •   The number of TIGTA-identified weaknesses is also
                     understated in the system-level POA&Ms. The TIGTA
                     report titles are listed as the weaknesses rather than
                                                                        Page 5
  The Method of Tracking Corrective Actions for Known
Security Weaknesses Has Not Been Adequately Developed

                     listing the specific management, operational, and
                     technical control weaknesses described in the reports.
                 •   The system-level POA&Ms do not include the names of
                     individuals responsible for correcting the security
                     weaknesses. Instead, only the responsible
                     organizational units are named.
                 Progress in addressing the weaknesses was overstated.
                 Weaknesses were closed off the system-level POA&Ms
                 when a system was certified and accredited. No testing was
                 done to evaluate specific security weaknesses. Instead, the
                 IRS assumed if a system had been certified and accredited,
                 then all weaknesses noted on the system’s POA&M could
                 be closed. The only exception was that a weakness would
                 remain open on the POA&M for any certified and
                 accredited systems that did not have a tested contingency
                 plan.
                 The IRS apparently assumed certification and accreditation
                 meant all weaknesses had been addressed. This assumption
                 is not valid since certified and accredited systems can still
                 have security weaknesses. We know of no testing that was
                 conducted to ensure all specific security weaknesses were,
                 in fact, corrected before the system-level POA&Ms were
                 closed.

                 Recommendations

                 The Chief, MA&SS, should coordinate with the CIO and
                 business unit owners to:
                     1. Develop POA&Ms that specifically identify known
                        security weaknesses, provide detailed corrective
                        actions, and identify responsible officials. All
                        known weaknesses should be included in either
                        program-level or system-level POA&Ms, and the
                        POA&Ms should contain details sufficient to allow
                        oversight of the IRS security program.
                     Management’s Response: The Chief, MA&SS, has
                     established a FISMA working group of executives and
                     senior staff from the business units and the
                     Modernization and Information Technology Services
                     organization. The group will develop and implement an
                                                                        Page 6
  The Method of Tracking Corrective Actions for Known
Security Weaknesses Has Not Been Adequately Developed

                    enterprise approach to managing the IRS’ POA&M
                    process. This approach will ensure that POA&Ms
                    include all known security weaknesses, provide detailed
                    corrective actions, and identify responsible officials.
                    2. Accurately report the results of efforts to correct
                       security weaknesses for both program-level and
                       system-level weaknesses. Testing should be
                       conducted to ensure weaknesses have been corrected
                       before the POA&Ms are closed.
                    Management’s Response: To ensure weaknesses are
                    corrected before being reported as closed, the Chief,
                    MA&SS, in coordination with the CIO and business unit
                    owners, will develop a matrix to allow the reconciliation
                    and validation of corrective actions through the testing
                    process.




                                                                      Page 7
                   The Method of Tracking Corrective Actions for Known
                 Security Weaknesses Has Not Been Adequately Developed

                                                                                    Appendix I


                      Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the effectiveness of the Internal Revenue
Service’s (IRS) process for monitoring security weaknesses. The purpose of the review was to
evaluate the Plans of Action and Milestones (POA&M) process employed by the IRS and
determine whether the POA&M process satisfies the Office of Management and Budget (OMB)
requirements and assists the agency in managing its risk and vulnerabilities. We also wanted to
establish the method used to track vulnerabilities identified by various oversight sources. To
accomplish this objective, we:
I.    Determined the method used by the Office of Mission Assurance and Security Services to
      track known security vulnerabilities.
II.   Determined whether the sources used to track these vulnerabilities included the following
      information, as required by the OMB, in order to prepare a POA&M:
      A.   Type of weakness.
      B.   Office or organization responsible for resolving the weakness.
      C.   Key milestones with completion dates.
      D.   Source of the identified weakness (e.g., Treasury Inspector General for Tax
           Administration, Government Accountability Office, internal functions).




                                                                                         Page 8
                  The Method of Tracking Corrective Actions for Known
               Security Weaknesses Has Not Been Adequately Developed

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Gerald Horn, Audit Manager
Joan Raniolo, Senior Auditor
William Simmons, Senior Auditor
Charles Ekholm, Auditor
George Franklin, Auditor




                                                                                         Page 9
                  The Method of Tracking Corrective Actions for Known
               Security Weaknesses Has Not Been Adequately Developed

                                                                        Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Information Officer OS:CIO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief Information Officer OS:CIO
       Chief, Mission Assurance and Security Services OS:MA




                                                                             Page 10
   The Method of Tracking Corrective Actions for Known
Security Weaknesses Has Not Been Adequately Developed

                                                         Appendix IV


        Management’s Response to the Draft Report




                                                              Page 11
   The Method of Tracking Corrective Actions for Known
Security Weaknesses Has Not Been Adequately Developed




                                                         Page 12
   The Method of Tracking Corrective Actions for Known
Security Weaknesses Has Not Been Adequately Developed




                                                         Page 13
   The Method of Tracking Corrective Actions for Known
Security Weaknesses Has Not Been Adequately Developed




                                                         Page 14
   The Method of Tracking Corrective Actions for Known
Security Weaknesses Has Not Been Adequately Developed




                                                         Page 15
